CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

VISA REWARDS
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

0.00%

Introductory APR for a period of six billing cycles.

After that, Your APR will be

APR for Balance Transfers
APR for Cash Advances
Penalty APR and When it Applies

8.99% - 17.99% .

This APR will vary with the market based on the Prime Rate.
8.99% - 17.99%
This APR will vary with the market based on the Prime Rate.
8.99% - 17.99%
This APR will vary with the market based on the Prime Rate.
18.00%
This APR may be applied to Your Account if You:
- Make a late payment.
How Long Will the Penalty APR Apply? If Your APRs are increased for
this reason, the Penalty APR will apply until You make six consecutive
minimum payments when due.

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at https://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Foreign Transaction Fee

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars

Up to $15.00
Up to $25.00
Up to $20.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Promotional Period for Introductory APR:
The Introductory APR for purchases will apply to transactions posted to Your Account during the first six months following
the opening of Your Account.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

11100245-MXC20-P-3-052217 (MXC201-E)

Loss of Introductory APR:
We may end Your Introductory APR for purchases and apply the prevailing non-introductory APR if You are 60 days late
in making a payment.
Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if You are 60 days late in making a payment.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at 1 (800) 456-5067 to receive oral disclosures of the Military Lending Act disclosure above and a
description of the payment obligation.
Other Fees & Disclosures:
Late Payment Fee:
$15.00 or the amount of the required minimum payment, whichever is less, if You are 10 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Over-the-Credit Limit Fee:
$25.00 or the amount of the transaction exceeding Your approved credit limit, whichever is less. If You have elected the
feature to allow Your Account to go over Your credit limit, We may charge You a fee as allowed by law. However, in no
case will We impose an over-the-limit fee except in the next two billing cycles unless You have obtained an additional
extension of credit in excess of such credit limit during each subsequent cycle or You have reduced the balance below the
credit limit as of the end of each billing cycle.
Returned Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Card Replacement Fee:
$10.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Rush Fee:
$35.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Statement Copy Fee:
$2.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of
a sales draft or statement that You request.
Account Research Fee:
$30.00 per hour. If Your Account is subject to an Account Research Fee, except as limited by applicable law and when
the request is made in connection with a billing error made by the Credit Union, a fee calculated on an hourly basis may
be charged to Your Account each time you request your account to be researched.

SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

11100245-MXC20-P-3-052217 (MXC201-E)

Photocopy Fee:
$2.00. If Your Account is subject to a Photocopy Fee, except as limited by applicable law and when the request is made in
connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each photocopy of any
document that You request.
Collection Costs:
For Idaho Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including court
costs and, if the amount You borrowed was greater than $1,000.00, reasonable attorney's fees.
For All Other Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
court costs and reasonable attorney's fees.
Periodic Rates:
The Introductory Purchase APR is 0.00% which is a daily periodic rate of 0.0000% .
The Purchase APR is 8.99% - 17.99% which is a daily periodic rate of 0.0246% - 0.0493%.
The Balance Transfer APR is 8.99% - 17.99% which is a daily periodic rate of 0.0246% - 0.0493%.
The Cash Advance APR is 8.99% - 17.99% which is a daily periodic rate of 0.0246% - 0.0493%.
The Penalty Rate APR is 18.00% which is a daily periodic rate of 0.0493% .
Variable Rate:
The ANNUAL PERCENTAGE RATE may increase in the future. The ANNUAL PERCENTAGE RATE is subject to change
on the first day of the billing cycle monthly to reflect any change in the Index and will be determined by the Prime Rate on
3rd Tuesday of each month, to which We add a margin. The ANNUAL PERCENTAGE RATE will never be greater than
17.99%. Any increase in the ANNUAL PERCENTAGE RATE will result in an increase in the amount of the interest You
will pay, may increase Your minimum payment, and may increase the number of payments to pay off Your balance. If the
Index is no longer available, the Credit Union will choose a new index which is based upon comparable information.

Margin:
Purchases will be charged at 5.49% - 10.49% above the Index.
Balance Transfers will be charged at 5.49% - 10.49% above the Index.
Cash Advances will be charged at 5.49% - 10.49% above the Index.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

11100245-MXC20-P-3-052217 (MXC201-E)

